WAIVER

Supreme Court, U.S.
FILED

OCT 2 2 2019
FFICE OF THE CLERK

SUPREME COURT OF THE UNITED STAT
Supreme Court Case No.

19-504
Christina Melito, et al.

Kara Bowes

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Christina Melito, Ryan Metzger, Alison Pierce, Gene Ellis, Walter Wood
and Christopher Legg
I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
member.
will be filed by a
Signature
Date.

10/22/2019

(Type or print) Name

Beth E. Terrell
0 Mr. 0 Ms. 0 Mrs. E] Miss

Firm

Terrell Marshall Law Group PLLC

Address

936 North 34th Street, Suite 300

City & State
Phone

Seattle, Washington

206-816-6603

Zip
Email

98103

bterrell@terrellmarshall.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Eric A. Isaacson, via email and US mail.

TERRELL

MARSHALL

LAW GROUP PLLC

Holly Rota
hrota@terrellmarshall.com

File No. 1712-001.Y

October 22, 2019

VIA OVERNIGHT MAIL
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-504, Kara Bowes v. Christina Melito, et al.

Dear Mr. Harris:
On behalf of Respondents Christina Melito, Ryan Metzger, Alison Pierce, Gene
Ellis, Walter Wood and Christopher Legg, enclosed is a fully executed Waiver Form in
connection with the above-referenced matter.
Thank you in advance.

Very truly yours,
TERRELL MARSHALL LAW GROUP PLLC

Holly Rota
Legal Secretary
Enclosure
cc:

Eric A. Isaacson, Counsel for Peititioner
(via email and US mail)

RECEIVED
OCT 2 4 2019
FFICE OF THE CLERK ,
UUPREME
COURT U.S.

936 N 34th Street, Suite 300, Seattle, WA 98103 I T 206.816.6603 I F 206.319.5450 I terrellmarshall.com

